          Office of Inspector General




September 30, 2005

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:       Transmittal of Audit Report – Flats Identification Code Sort for Automated
               Flats Sorting Machine 100s (Report Number DA-AR-05-001)

This report presents the results of our self-initiated audit of the Flats Identification Code
Sort (FICS) for Automated Flats Sorting Machine (AFSM) 100s (Project Number
05XG003DA000). Our objective was to determine whether the FICS program reduces
workhours at remote encoding centers and increases productivity in processing flat mail
on the AFSM 100. In addition, we assessed contract compliance for preventive
maintenance.

Overall, FICS may have contributed to the reduction of workhours at the remote
encoding centers, and had a limited effect on flat mail productivity. However, FICS
required daily preventive maintenance instead of the contracted weekly requirement.

Management could further build on program success by addressing the vendor’s
compliance with the contract for weekly preventive maintenance. The overall monetary
impact on operations for vendor noncompliance totaled approximately $40.8 million,
amortized over a 10-year period. The monetary impact will be reported in our
Semiannual Report to Congress as funds put to better use, unrecoverable costs, and
questioned costs.

We recommended the Postal Service require compliance with the contract’s weekly
preventive maintenance requirements for FICS components or seek consideration. In
general, management agreed with the findings and recommendations and noted that
the Flats Identification Code Sort program exceeded the field expectations and
continues to produce workhour savings benefits for the Postal Service. Management
also concurred with the rationale used to calculate the $40.8 million of monetary impact.
Management’s comments and our evaluation of these comments are included in this
report.
The Office of Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Miguel Castillo,
Director, Engineering, or me at (703) 248-2300.




Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments

cc: Lynn Malcolm
    Paul Vogel
    Aron M. Sanchez
    Edward L. Gamache
    Steven R. Phelps
Flats Identification Code Sort for Automated
 Flat Sorting Machine 100s                                               DA-AR-05-001


                                    TABLE OF CONTENTS

 Executive Summary                                                            i

 Part I                                                                       1

 Introduction                                                                 1

     Background                                                               1
     Objectives, Scope, and Methodology                                       2
     Prior Audit Coverage                                                     4

 Part II

 Audit Results                                                                5

     Program Outcomes                                                         5
        Remote Encoding Centers’ Workhour Reductions                          5
        AFSM 100 Productivity                                                 5

     Preventive Maintenance                                                   7
     Recommendation                                                           8
     Management’s Comments                                                    8
     Evaluation of Management’s Comments                                      9

 Appendix A. FICS Performance Review                                        10

 Appendix B. Monetary Benefits Review                                       15

 Appendix C. Review of Maintenance Training                                 18

 Appendix D. National Trend in Overtime Workhours for Maintenance –         19
             All Postal Service Operating Equipment Labor Distribution
             Code 36

 Appendix E. Management’s Comments                                          20
Flats Identification Code Sort for Automated                                      DA-AR-05-001
 Flat Sorting Machine 100s


                                    EXECUTIVE SUMMARY
 Introduction                    The Office of Inspector General conducted a self-initiated
                                 audit of the Flats Identification Code Sort (FICS) for
                                 Automated Flats Sorting Machine (AFSM) 100s. Our audit
                                 objective was to determine whether the FICS program
                                 reduced workhours at remote encoding centers and
                                 increased productivity in processing flat mail on the
                                 AFSM 100. In addition, we assessed contract compliance
                                 for preventive maintenance.

 Results in Brief                Overall, FICS may have contributed to the reduction of
                                 workhours at the remote encoding centers as projected in
                                 the Decision Analysis Report and showed a limited impact
                                 on flat mail productivity during deployment.

                                 The achievement of outcomes we measured depended on
                                 the performance of daily rather than contracted weekly
                                 preventive maintenance. Management could further build
                                 on program success by addressing the vendor’s compliance
                                 with the contract for weekly preventive maintenance. The
                                 estimated overall monetary impact for vendor
                                 noncompliance totals $40.8 million. Of this amount,
                                 approximately $7.7 million in maintenance overtime could
                                 be saved over a 10-year period after the vendor completes
                                 management’s planned but limited system enhancements.
                                 More specifically, a labeler upgrade scheduled for
                                 completion by the beginning of calendar year 2006 should
                                 reduce 27,820 preventive maintenance workhours needed
                                 to sustain performance. Until this action is complete, we
                                 anticipate the Postal Service will incur an estimated
                                 $3.6 million in maintenance costs from January through
                                 December 2005 that may be unrecoverable.

                                 At the conclusion of our audit, management still had the
                                 opportunity to fully address all areas of vendor
                                 noncompliance, including other components such as the
                                 printer, reader, and verifier. These components also require
                                 daily rather than the contracted weekly maintenance to
                                 sustain performance. The monetary impact of vendor
                                 noncompliance for these is approximately $29.5 million. As
                                 of July 2005, program management indicated they were
                                 negotiating consideration with the vendor.




                                                  i
Flats Identification Code Sort for Automated                                       DA-AR-05-001
 Flat Sorting Machine 100s




 Summary of                      We recommended management require the vendor to
 Recommendation                  comply with contract requirements or seek consideration.

 Summary of                     In general, management agreed with the findings and the
 Management’s                   recommendation above. Management decided to seek
 Comments                       monetary considerations from the vendor for maintenance
                                nonperformance. Additionally, while management agreed
                                with a second recommendation contained in our draft report,
                                they stated that their engineering assessment indicates that
                                the consideration for improved maintenance performance
                                will not be significant enough to warrant an adjustment to the
                                operational budget and workload scheduling. Management
                                also stated the Flats Identification Code Sort program
                                exceeded the field expectations and continues to produce
                                workhour savings benefits for the Postal Service. They look
                                forward to providing future improvements to the system that
                                can generate even more operational savings. Management
                                also concurred with the rationale used to calculate the
                                $40.8 million of monetary impact due to the contractor not
                                complying with the requirement for weekly maintenance
                                only. Management’s comments, in their entirety, are
                                included in Appendix E of this report.

 Overall Evaluation of          Management’s actions taken or planned are responsive to
 Management’s                   the recommendation and should correct the issues
 Comments                       identified in this report. Management’s decision to seek
                                consideration from the vendor negates the need for
                                recommendation 2. Therefore, recommendation 2 is not
                                included in the final report.




                                                 ii
Flats Identification Code Sort for Automated                                           DA-AR-05-001
 Flat Sorting Machine 100s



                                         INTRODUCTION
 Background                      On August 5, 2003, the Board of Governors approved the
                                 Flats Identification Code Sort (FICS) program for 136 million
                                 with an expected return on investment of 16.6 percent.

                                 The FICS program was an enhancement to the Automated
                                 Flats Sorting Machine (AFSM) 100s. Each of the
                                 three feeders on the AFSM 100 was upgraded with fully
                                 integrated FICS components that include a labeler, ink jet
                                 printer, identification tag/barcode reader, and verifier.
                                 With FICS, an identification tag was applied to each
                                 non-barcoded flat to increase the efficiency of automating
                                 flats.




                                                       FICS COMPONENTS

                                 Deployment of the FICS program to the Postal Service’s
                                 534 operational AFSM 100s was expected to generate
                                 savings of $25.7 million in fiscal year (FY) 2006, the first full
                                 year of usage. This includes savings of $18.5 million from
                                 reducing workhours spent in keying, which were partially
                                 offset by increased maintenance and labor costs to handle
                                 rejected identification tags. The FICS program was
                                 expected to improve image reductions at remote encoding
                                 centers by over 43 percent and to reduce keying errors and
                                 optical character reader errors by over 58 percent.




                                                   1
Flats Identification Code Sort for Automated                                         DA-AR-05-001
 Flat Sorting Machine 100s




                                 On September 2, 2003, the Postal Service awarded
                                 Northrop Grumman a noncompetitive firm fixed-price
                                 contract totaling approximately $117.4 million for
                                 1,627 FICS systems. The contract required weekly
                                 preventive maintenance on all FICS components. In
                                 September 2004, the Postal Service placed a temporary
                                 hold on the contract because of concerns about site
                                 productivity and readiness to support the new equipment. A
                                 recovery plan was developed, and these issues were
                                 resolved through a retrofit to the labeler, daily preventive
                                 maintenance, and additional emphasis on training.
                                 Northrop Grumman completed the retrofit of all deployed
                                 systems by the end of November 2004, and full production
                                 resumed in December 2004. The Postal Service revised its
                                 completion date for deploying all FICS systems to June 30,
                                 2005. Currently, the Postal Service has issued a request for
                                 proposal to Northrop Grumman for a labeler upgrade.

 Objectives, Scope,              Our initial objective was to determine whether FICS
 and Methodology                 increases productivity in processing flat mail on the
                                 AFSM 100. However, during the audit, we also decided to
                                 determine whether FICS reduces workhours at remote
                                 encoding centers and to assess contract compliance for
                                 preventive maintenance workhours. The scope of our audit
                                 covered deployed FICS units nationwide.

                                 We interviewed and obtained information from Postal
                                 Service Engineering, Supply Management, Operations, area
                                 plants, Maintenance Technical Service Center, Operations
                                 Technical Support, and Northrop Grumman. We attended
                                 technical review meetings and reviewed the Postal
                                 Service’s investment and purchasing policies.

                                 To obtain an indication of performance levels for a variety of
                                 site sizes, we judgmentally selected Charlottesville, Virginia;
                                 Brockton, Massachusetts; Rochester, New York; Dallas,
                                 Texas; New Orleans, Louisiana; and Capital Heights and
                                 Gaithersburg, Maryland, which had deployed FICS systems.
                                 We visited four sites and surveyed the remaining
                                 three sites. We analyzed Postal Service Web sites and
                                 maintenance databases to analyze productivity, throughput,
                                 time outs, volume, preventive maintenance, and trouble




                                                  2
Flats Identification Code Sort for Automated                                           DA-AR-05-001
 Flat Sorting Machine 100s



                                 maintenance calls. We reviewed and analyzed contracts,
                                 conducted a telephone survey on maintenance training, and
                                 reviewed training records.

                                 In coordination with the Office of Inspector General
                                 statistician, cost-benefit analyst, contract specialist, and the
                                 computer-assisted assessment techniques team, we
                                 assessed FICS performance based on a before-and-after
                                 analysis of AFSM 100 productivity and throughputs. (See
                                 Appendix A.) To perform this assessment, we used data
                                 from the Postal Service Management Operating Data
                                 System (WebMODS) Web site for 12 days measured in
                                 FY 2005.

                                 We also reviewed records of FICS maintenance training
                                 (see Appendix C) to determine whether time saved could be
                                 used in other maintenance operations. Training analysis
                                 was conducted using a survey based on a random sample
                                 of 30 individuals from a list of 766 who had received FICS
                                 training. The survey question focused on cross-training of
                                 maintenance technicians.

                                 In addition, we conducted an analysis of maintenance
                                 payroll information to determine an average workhour rate
                                 used to calculate monetary impact. (See Appendix B.)
                                 Further, we analyzed national trends in maintenance
                                 overtime to assess the feasibility of reducing overtime. (See
                                 Appendix D.)

                                 We conducted this audit from December 2004 through
                                 September 2005 in accordance with generally accepted
                                 government auditing standards and included such tests of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our observations and
                                 conclusions with management officials and included their
                                 comments where appropriate. We relied on data from
                                 Postal Service operational systems to conduct our analyses.
                                 We did not test the validity of the data, but discussed results
                                 of our analyses with Postal Service managers.




                                                   3
Flats Identification Code Sort for Automated                                      DA-AR-05-001
 Flat Sorting Machine 100s




 Prior Audit Coverage            DCAA Audit Report on U.S. Postal Service Flats ID Coding
                                 System No. 6311-2003L22000008, February 5, 2004,
                                 determined that Northup Grumman’s original proposal and
                                 final certified contract prices were based on accurate,
                                 complete, and current cost or pricing data. The scope of
                                 their audit reflected their assessment of control risk and
                                 included audit tests designed to provide a reasonable basis
                                 for their opinion. They concluded that the proposal was
                                 prepared in accordance with appropriate provisions of the
                                 Postal Service Purchasing Manual and considered the
                                 proposal acceptable for negotiating a fair and reasonable
                                 price.




                                                 4
Flats Identification Code Sort for Automated                                                        DA-AR-05-001
 Flat Sorting Machine 100s



                                           AUDIT RESULTS
    Program Outcomes              Overall, FICS may have contributed to remote encoding
                                  center workhour reductions and had a limited impact on flat
                                  mail productivity during deployment.

    Remote Encoding               Our review of the remote encoding centers’ workhours
    Centers’ Workhour             showed a general decline in keying workhours associated
    Reductions                    with flat mail operations. Specifically, we analyzed
                                  workhour trends of three centers responsible for handling
                                  FICS images from flat mail operations – Tampa,
                                  Chattanooga, and Charleston. We compared the centers’
                                  workhour data from Postal Service WebMODS database for
                                  January 20, 2005 – February 9, 2005, against SPLY1 data
                                  (January 22, 2004 – February 11, 2004). This data showed
                                  that total keying workhours decreased from 116,728 to
                                  97,057 for the period, a net reduction of 19,670 workhours.

                                  The Decision Analysis Report (DAR) bases FICS savings
                                  on image reductions at remote encoding centers and
                                  reductions in keying errors and optical character reader
                                  errors. These outcomes result in savings associated with
                                  workhour reductions.

    AFSM 100 Productivity         The DAR describes FICS as a low operational risk because
                                  the system will not alter the operation of any existing
                                  equipment, but should increase the efficiency of image and
                                  mail flow. Early in deployment, program management
                                  suspended FICS because it was affecting AFSM 100
                                  productivity. As a result, we analyzed productivity and
                                  throughputs to assess whether the corrective action raised
                                  productivity to similar levels prior to FICS installation.

                                  For the seven judgmentally selected sites surveyed in
                                  Appendix A, AFSM 100 flat mail productivity showed mixed
                                  results for the period immediately before and after FICS
                                  reactivation. Specifically, four sites measured showed a
                                  decrease in productivity, while the remaining three sites
                                  showed that productivity increased. Two of the decreases
                                  were extremely small. Because we did not observe a
                                  consistent effect for the days without FICS compared to the
                                  days with FICS, we cannot say that FICS caused the

1
 Same period last year – SPLY is the accounting period (or other period) compared with the same period the
previous year.



                                                        5
Flats Identification Code Sort for Automated                                      DA-AR-05-001
 Flat Sorting Machine 100s



                                 AFSM 100 productivity changes or attribute any specific
                                 effect to FICS. The mixed results suggest that a factor
                                 other than FICS could have caused the variations in
                                 AFSM 100 productivity.

                                 We used similar measures to chart the throughput
                                 performance of FICS. As shown in Appendix A, the daily
                                 throughputs, including SPLY, are consistently comparable
                                 to the performance of the AFSM before the installation of
                                 FICS. Four of the seven sites measured generally showed
                                 pre- and post-FICS throughputs following SPLY trends. In
                                 addition, one site showed throughput trends above SPLY
                                 and two below SPLY, which recovered in later periods.
                                 Therefore, our throughput analysis showed little evidence
                                 that throughput based on run time is degraded by FICS.

                                 Program management stated that expected increases in
                                 AFSM 100 productivity will occur once FICS is fully
                                 deployed nationwide. We agree that the full deployment of
                                 FICS may lead to increases in productivity and throughput.

                                 Based on the results of our review, we have no
                                 recommendations regarding program outcomes.




                                                 6
Flats Identification Code Sort for Automated                                           DA-AR-05-001
 Flat Sorting Machine 100s




    Preventive                      FICS performance and DAR expectations were achieved,
    Maintenance                     but with daily rather than the contracted weekly preventive
                                    maintenance. Our interviews, observations, and analysis of
                                    program data showed that national maintenance plans for
                                    preventive maintenance required 58 minutes daily for FICS
                                    components, including the labeler, inkjet printer,
                                    identification tag/barcode reader, and verifier. However, the
                                    Engineering design cognizant organization’s intended to
                                    place a more stringent requirement in the Statement of
                                    Work2 (SOW) that would require the vendor to deliver FICS
                                    with components that would need preventive maintenance
                                    no more frequently than weekly.

                                    The program manager could have better coordinated SOW
                                    requirements between team members but continued with
                                    daily preventive maintenance during the First Article Test,
                                    First Article Retest, and deployment to avoid reducing
                                    AFSM 100 productivity. Daily preventive maintenance was
                                    also conducted without contract modification.

                                    Management could further build on program success by
                                    addressing the vendor’s compliance with required weekly
                                    preventive maintenance. Vendor noncompliance had an
                                    estimated monetary impact of $40.8 million on operations,
                                    as noted in Appendix B. Of this amount, approximately
                                    $7.7 million in maintenance overtime could be saved over a
                                    10-year period after the vendor completes management’s
                                    planned but limited system enhancements. Specifically, a
                                    labeler upgrade scheduled for completion by the beginning
                                    of calendar year (CY) 2006 should reduce preventive
                                    maintenance by 12 minutes daily, or 27,820 hours yearly.
                                    Before this action is complete, we anticipate that the Postal
                                    Service will continue to incur 58 minutes of daily preventive
                                    maintenance costs that may be unrecoverable. Expected
                                    unrecoverable amounts are estimated to total $3.6 million
                                    from January to December 2005.

                                    At the conclusion of our audit, management had the
                                    opportunity to fully address all areas of vendor
                                    noncompliance, including other components such as the
                                    printer, reader, and verifier. These components have also
2
    Section D, Technical Design Requirements.



                                                     7
Flats Identification Code Sort for Automated                                      DA-AR-05-001
 Flat Sorting Machine 100s



                                 been requiring daily rather than the contracted weekly
                                 maintenance to sustain performance. The monetary impact
                                 of vendor noncompliance for 46 minutes of daily preventive
                                 maintenance, or 106,340 workhours yearly, is approximately
                                 $29.5 million over 10 years. We question additional
                                 preventive maintenance time spent to maintain operational
                                 performance when the vendor’s contractual compliance has
                                 not been fully addressed.

                                 We recognized that the DAR and the Postal Service budget
                                 included daily maintenance. Therefore, bringing the vendor
                                 into compliance and adjusting the operational budget
                                 accordingly would raise the planned 16.6 percent return on
                                 investment.

                                 The premise of monetary impact considers that preventive
                                 maintenance time saved can be used to reduce current
                                 trends in maintenance overtime for processing equipment,
                                 as noted in Appendix D. Electronic and mail processing
                                 equipment technicians in a range of pay levels were
                                 cross-trained to perform maintenance on other processing
                                 equipment, as described in Appendix C. We also confirmed
                                 through interviews with maintenance managers and
                                 supervisors that these technicians were performing
                                 maintenance on other processing equipment.

 Recommendation                  We recommend the vice president, Engineering, in
                                 coordination with the vice president, Supply Management:

                                 1. Require compliance with the contract requirements for
                                    weekly preventive maintenance for Flats Identification
                                    Code Sort components or seek consideration.

 Management’s                   Management agreed with the recommendation and is in the
 Comments                       process of seeking consideration for noncompliance with the
                                contract requirements. Management also concurred with
                                the rationale used to calculate the $40.8 million of monetary
                                impact due to the contractor not complying with the
                                requirement for weekly maintenance only. They noted that
                                the DAR planned for 1 hour of daily maintenance, and
                                management administered the budget to the field sites
                                accordingly.




                                                 8
Flats Identification Code Sort for Automated                                      DA-AR-05-001
 Flat Sorting Machine 100s




 Evaluation of                  Management’s actions taken or planned are responsive to
 Management’s                   the findings and recommendation and should correct the
 Comments                       issues identified in the finding.

                                The draft report had two recommendations. Based on
                                management’s decision to seek consideration from the
                                vendor, recommendation 2 is no longer applicable.
                                Therefore, recommendation 2 is not included in the final
                                report.




                                                 9
Flats Identification Code Sort for Automated                                                         DA-AR-05-001
 Flat Sorting Machine 100s



                    APPENDIX A. FICS PERFORMANCE REVIEW

                        Productivity Before and After FICS Reactivation




                                            Pre-FICS                  Post-FICS
                   SITE                   Productivity3              Productivity4               Difference
         Brockton, MA                                    2,149                       2,594                     445
         Charlottesville, VA                             2,391                       1,831                    -560
         Southern, MD                                        736                       447                    -289
         New Orleans, LA                                 1,415                       1,985                     570
         Dallas, TX                                      1,528                       1,747                     219
         Rochester, NY                                   1,453                       1,401                     -52
         Suburban, MD                                    1,932                       1,879                     -53



                   Pre-FICS periods: January 13 - 15 and January 17 - 19, 2005.
                   Post-FICS periods: January 27 - 29 and January 31 – February 2,
                   2005.

                   Positive differences indicate that post-FICS productivity increased.
                   Negative differences indicate that post-FICS productivity decreased.




3
  Productivity is first handled pieces processed on the AFSM 100 (throughput) divided by workhours for FICS outgoing
mail–operation codes 331 and 332 and AFSM operators, labor distribution code 12, respectively. Source data
WebMODS daily run time.
4
  Post-FICS productivity measured after retrofit installed.



                                                        10
Flats Identification Code Sort for Automated                                           DA-AR-05-001
 Flat Sorting Machine 100s



                                    FICS Throughput Performance

Sites Generally Following SPLY Trend


                            SUBURBAN Daily Run Time Throughput

                    20000
    pieces / hour




                    15000

                    10000

                     5000

                        0
                            1   2    3     4   5        6     1    2       3       4   5     6
                                                comparison day

                                          pre-FICS          SPLY       post-FICS




                            ROCHESTER Daily Run Time Throughput

                    20000
   pieces / hour




                    15000

                    10000

                     5000

                        0
                            1   2    3     4   5        6     1    2       3       4   5     6
                                                comparison day

                                          pre-FICS          SPLY       post-FICS




                                                   11
Flats Identification Code Sort for Automated                                           DA-AR-05-001
 Flat Sorting Machine 100s




                            BROCKTON Daily Run Time Throughput

                    20000
    pieces / hour




                    15000

                    10000

                     5000

                        0
                            1     2   3    4   5        6     1    2       3       4   5     6
                                                comparison day

                                          pre-FICS          SPLY       post-FICS




                                DALLAS Daily Run Time Throughput

                    25000
                    20000
    pieces / hour




                    15000
                    10000
                     5000
                        0
                            1     2   3    4   5        6     1    2       3       4   5     6
                                                comparison day

                                          pre-FICS          SPLY       post-FICS




                                                   12
Flats Identification Code Sort for Automated                                               DA-AR-05-001
 Flat Sorting Machine 100s



Sites Below SPLY Trend


                            NEW ORLEANS Daily Run Time Throughput

                    20000
   pieces / hour




                    15000

                    10000

                    5000

                        0
                             1   2   3     4     5         6     1     2      3        4   5     6
                                                     comparison day

                                         pre-FICS 2005          SPLY         post-FICS




                             SOUTHERN Daily Run Time Throughput

                    20000
    pieces / hour




                    15000

                    10000

                     5000

                        0
                             1   2   3     4     5         6     1     2       3       4   5     6
                                                     comparison day

                                           pre-FICS            SPLY        post-FICS




                                                      13
Flats Identification Code Sort for Automated                                           DA-AR-05-001
 Flat Sorting Machine 100s




Site Above SPLY Trend


                      CHARLOTTESVILLE Daily Run Time Throughput

                   18000
                   16000
                   14000
   pieces / hour




                   12000
                   10000
                    8000
                    6000
                    4000
                    2000
                       0
                           1   2   3       4   5        6     1    2       3       4   5     6
                                                comparison day

                                          pre-FICS          SPLY       post-FICS




                                                   14
  Flats Identification Code Sort for Automated                                                      DA-AR-05-001
   Flat Sorting Machine 100s




                     APPENDIX B. MONETARY BENEFITS REVIEW

                                        FUNDS PUT TO BETTER USE

                                                  Workhour
                                                  Reduction               Time Frame: 10 Fiscal Years
                                                 Because of                      (2006 – 2015)
                                                  Change in
                                                 Maintenance        Undiscounted           Discounted Savings
        Recommended Action                          Plan              Savings              (Net Present Value)

Maintenance provides preventive                         27,820        $10,109,351                       $7,711,005
maintenance 12 minutes less per
day for FICS Labeler component

Total                                                   27,820        $10,109,351                      $7,711,005

  Notes
     • Cost avoidance is calculated using planned workhour reductions multiplied by the
        average overtime labor rate for FICS-trained personnel.
     • Labor rates are based on the average annual salary of FICS-trained personnel
        divided by 2,080 hours.5
     • Calculation of reduced workhours calculation based on 12 minutes less
        maintenance per day per machine. Five excess days per week was used
        because the vendor did not comply with the contract provisions.
     • Calculation is discounted cash flow over a 10-year period beginning in CY 2006.
     • The Postal Service’s published (April 15, 2005) cost of borrowing, 5.0 percent,
        was used as the discount rate.
     • The Postal Service’s published (April 15, 2005) labor escalation rate of
        3.1 percent was used to appreciate labor costs.

  Funds Put To Better Use: Funds that can be used more efficiently by implementing
  recommended actions.




  5
  The average salary for a sample of 614 of 766 FICS-trained maintenance personnel is $42,103. Salary information
  was taken from the employee master file as of June 2005. The average hourly rate based on 2,080 annual
  workhours is $20.24, and the average overtime rate is $30.36.




                                                         15
Flats Identification Code Sort for Automated                                                       DA-AR-05-001
 Flat Sorting Machine 100s



                                        UNRECOVERABLE COSTS

                                                                Workhours in
                                                                 Excess of                 Period:
                                                                Statement of           January 2005 –
                                                                    Work               December 2005
               Recommended Action                               Requirement          Unrecoverable Costs

Preventive maintenance performed once a                                 115,923                    $3,551,291
week on all FICS components

Total                                                                   115,923                    $3,551,291

Notes
   • Calculation is for the period January through December 2005. Some FICS
      devices were deployed as early as March 2004, but a conservative approach
      was used.
   • Unrecoverable costs are calculated using excess workhours multiplied by the
      average overtime labor rate for FICS-trained personnel.
   • Labor rates are based on the average annual salary of FICS-trained personnel
      divided by 2,080 workhours.6
   • Calculation of excess workhours based on 58 minutes maintenance per day per
      machine. Five excess days per week was used because the vendor did not
      comply with the contract provisions.

Unrecoverable Costs: Costs that should not have been incurred and are not recoverable.
In this case, additional preventive maintenance costs occurred during CY 2005. However,
those costs are unrecoverable.




6
 The average salary for a sample of 614 of 766 FICS-trained maintenance personnel is $42,103. Salary information
was taken from the employee master file as of June 2005. The average hourly rate based on 2,080 annual
workhours is $20.24, and the average overtime rate is $30.36.




                                                       16
  Flats Identification Code Sort for Automated                                                       DA-AR-05-001
   Flat Sorting Machine 100s



                                             QUESTIONED COSTS


                                                 Workhours in            Time Frame: 10 Fiscal Years
                                                  Excess of                     (2006 – 2015)
                                                 Statement of                        Discounted Excess
                                                     Work            Undiscounted           Costs
        Recommended Action                       Requirement         Excess Costs    (Net Present Value)

Maintenance provides preventive                        106,340         $38,642,287                     $29,474,775
maintenance once a week on all
FICS components

Total                                                  106,340         $38,642,287                     $29,474,775

  Notes
     • Questioned costs are calculated using excess workhours multiplied by the
        average overtime labor rate for FICS trained personnel.
     • Labor rates are based on the average annual salary of FICS-trained personnel
        divided by 2,080 workhours.7
     • Calculation of excess hours is based on 46 minutes per day per machine when
        no additional maintenance time adjustment is planned. Five excess days per
        week was used because the vendor did not comply with the contract provisions.
     • Calculation is discounted cash flow over a 10-year period beginning in CY 2006.
     • The Postal Service’s published (April 15, 2005) cost of borrowing, 5.0 percent,
        was used as the discount rate.
     • The Postal Service’s published (April 15, 2005) labor escalation rate of
        3.1 percent was used to appreciate labor costs.


  Questioned Costs: A cost that is questioned because it is believed to be unnecessary,
  unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc.




  7
   The average salary for a sample of 614 of 766 FICS-trained maintenance personnel is $42,103. Salary information
  was taken from the employee master file as of June 2005. The average hourly rate based on 2,080 annual
  workhours is $20.24, and the average overtime rate is $30.36.




                                                         17
Flats Identification Code Sort for Automated                                     DA-AR-05-001
 Flat Sorting Machine 100s




             APPENDIX C. REVIEW OF MAINTENANCE TRAINING

                                                                Technician Trained on Multiple
              Location                         Finance Number      System including FICS
Wichita, KS                                        199714                    Yes
Syracuse, NY                                       358361                    Yes
Oshkosh, WI                                        566285                    Yes
Houston, TX                                        484147                    Yes
North Houston, TX                                  484143                    Yes
Newburgh, NY                                       355306                    Yes
Wilmington, DE                                     096821                    Yes
Indianapolis, IN                                   174038                    Yes
Kearny, NJ                                         335980                    Yes
New Castle, PA                                     415886                    Yes
Erie, PA                                           412544                    Yes
Honolulu, HI                                       142401                    Yes
Trenton, NJ                                        338552                    Yes
San Antonio, TX                                    487981                    Yes
St. Louis, MO                                      287142                    Yes
New York, NY                                       355831                    Yes
North Rearing, MA                                  244591                    Yes
Eugene, OR                                         402850                    Yes
Little Rock, OR                                    045131                    Yes
Clarksburg, WV                                     551569                    Yes
San Diego, CA                                      056770                    Yes
Chicago, IL                                        161547                    Yes
Chicago, IL                                        161547                    Yes
Dayton, OH                                         382094                    Yes
City of Industry, CA                               050109                    Yes
Stockton, CA                                       057526                    Yes
Tucson, AZ                                         038881                    Yes
New Orleans, LA                                    216567                    Yes
Orlando, FL                                        116916                    Yes
Charlottesville, VA                                511719                    Yes

None of the 30 was trained solely for FICS maintenance. With a 5.0 percent risk of over
reliance on the sample, this result means that no more than 9.5 percent of the
766 personnel trained on FICS were trained on FICS only.




                                                   18
Flats Identification Code Sort for Automated                                                                                                                                   DA-AR-05-001
 Flat Sorting Machine 100s




    APPENDIX D. NATIONAL TREND IN OVERTIME WORKHOURS FOR
    MAINTENANCE – ALL POSTAL SERVICE OPERATING EQUIPMENT
                    Labor Distribution Code 368

                                                                                             Trend                  Potential Average Time Savings

                           350000




                           300000




                           250000
    Overtim e W orkhours




                           200000




                           150000




                           100000




                           50000




                                 0
                                    02




                                                          2

                                                               02

                                                                        02

                                                                              03




                                                                                                      3

                                                                                                           03

                                                                                                                    03

                                                                                                                          04




                                                                                                                                                  4

                                                                                                                                                       04

                                                                                                                                                                04

                                                                                                                                                                      05




                                                                                                                                                                                              5
                                                   02




                                                                                             03




                                                                                                                                         04




                                                                                                                                                                                     05
                                           02




                                                                                       03




                                                                                                                                   04




                                                                                                                                                                               05
                                                        00




                                                                                                  00




                                                                                                                                              00




                                                                                                                                                                                          00
                                                              20

                                                                    20




                                                                                                          20

                                                                                                                20




                                                                                                                                                      20

                                                                                                                                                            20
                                 20

                                         20




                                                                             20

                                                                                   20




                                                                                                                         20

                                                                                                                               20




                                                                                                                                                                     20

                                                                                                                                                                           20
                                                20




                                                                                            20




                                                                                                                                        20




                                                                                                                                                                                    20
                                                     Y2




                                                                                                 Y2




                                                                                                                                             Y2




                                                                                                                                                                                         Y2
                               FY




                                                          FY

                                                                   FY

                                                                         FY




                                                                                                      FY

                                                                                                               FY

                                                                                                                     FY




                                                                                                                                                  FY

                                                                                                                                                           FY

                                                                                                                                                                 FY
                                                                                                                                    FY
                                      FY

                                              FY




                                                                                  FY

                                                                                        FY




                                                                                                                              FY




                                                                                                                                                                          FY

                                                                                                                                                                                FY
                                                   rF




                                                                                             rF




                                                                                                                                         rF




                                                                                                                                                                                     rF
                            ct




                                                                        ct




                                                                                                                    ct
                                                               g




                                                                                                           g




                                                                                                                                                       g

                                                                                                                                                                ct
                                                          n




                                                                                                      n




                                                                                                                                                  n
                                           b




                                                                                       b




                                                                                                                                   b




                                                                                                                                                                               b
                                     c




                                                                              c




                                                                                                                          c




                                                                                                                                                                      c
                                                Ap




                                                                                            Ap




                                                                                                                                        Ap




                                                                                                                                                                                    Ap
                                 De




                                                                             De




                                                                                                                         De




                                                                                                                                                                     De
                                                        Ju

                                                              Au




                                                                                                  Ju

                                                                                                          Au




                                                                                                                                              Ju

                                                                                                                                                      Au
                                         Fe




                                                                                   Fe




                                                                                                                               Fe




                                                                                                                                                                           Fe
                           O




                                                                    O




                                                                                                                O




                                                                                                                                                            O




8
 Potential Average Time Savings is based on annual excess time associated with vendor noncompliance.
Data Source: WebEIS, June 2005.



                                                                                                          19
Flats Identification Code Sort for Automated           DA-AR-05-001
 Flat Sorting Machine 100s



                   APPENDIX E. MANAGEMENT’S COMMENTS




                                               20
Flats Identification Code Sort for Automated        DA-AR-05-001
 Flat Sorting Machine 100s




                                               21
